No.

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER

Sarada Mohapatra

VS.
Director. US Patent and Trademark Office — RESPONDENT
PROOF OF SERVICE
__________________do swear or declare that on this date,
I. Sarada Mohapatra
, 2021 , as required by Supreme Court Rule 29 I have
August 31.
served the enclosed PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows :
Solicitor General of the United States, Room 5614,
Department of Justice
950 Pennsylvania Ave., N.W., Washington, D. C. 20530-0001.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on August, 31, 2021.

(Signature)

